IN THE SUPREME COURT OF THE UNITED STATES
No.

JOHVANNY AYBAR-ULLOA,
PETITIONER,
v.
UNITED STATES OF AMERICA,
RESPONDENT.
MOTION FOR LEAVE TO PROCEED

IN FORMA PAUPERIS

Pursuant to 18 U.S.C. ยง 3006A(d)(7) and Supreme Court Rule 39, Petitioner,
Johvanny Aybar-Ulloa, respectfully requests leave to file the attached Petition for
Writ of Certiorari to the United States Court of Appeals for the First Circuit without
pre-payment of fees or costs and, further, to proceed in forma pauperis. Petitioner
was represented by counsel appointed pursuant to 18 U.S.C. ยง 3006A in the district
court and on appeal.
Respectfully submitted,
Johvanny Aybar-Ulloa
By Counsel
/s/ Heather Clark
Heather Clark
Clark Law Office
P.O. Box 879
Waterford, Connecticut 06385
Tel.: (203) 772-7939
Dated: April 26, 2021

